No. 20-138

31u Eht
amprente Court of the liniteb iptateg
DONALD J. TRUMP, PRESIDENT OF THE UNITED

STATES, ET AL., Petitioners,
U.
SIERRA CLUB, ET AL., Respondents.
DONALD J. TRUMP, PRESIDENT OF THE UNITED

STATES, ET AL., Petitioners,
U.
STATE OF CALIFORNIA, ET AL., Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth
Circuit
AMICUS CURIAE BRIEF OF THE AMERICAN
CENTER FOR LAW & JUSTICE
IN SUPPORT OF PETITIONERS
JAY ALAN SEKULOW
Counsel of Record

AMERICAN CENTER FOR
LAW & JUSTICE

STUART J. ROTH
ANDREW J. EKONOMOU
JORDAN SEKULOW
MILES L. TERRY
MARK GOLDFEDER
BENJAMIN P. SISNEY

201 Maryland Avenue, NE
Washington, DC 20002
(202) 546-8890
sekulow@aclj.org

Counsel for Amicus Curiae

1

TABLE OF CONTENTS
TABLE OF AUTHORITIES

iii

INTEREST OF AMICUS

1

SUMMARY OF ARGUMENT

2

ARGUMENT

3

THE CREATION OF CONSTITUTIONAL
AND EQUITABLE ULTRA VIRES CAUSES
OF ACTION FREE OF ZONE-OFINTERESTS SCRUTINY EXCEEDS THE
LOWER COURTS' LEGAL AUTHORITY
3
AND HARMS THE NATION
PETITIONER DOD'S TRANSFER OF
FUNDS PURSUANT TO § 8005 OF THE FY
2019 DODAA INTO ITS § 284(b)(7) DRUGINTERDICTION ACCOUNT TO SUPPORT
DHS WITH ROADS, FENCES, AND
LIGHTING, IS LAWFUL BECAUSE IT IS
AUTHORIZED BY CONGRESS AND
DETERMINED TO BE FOR UNFORESEEN
9
MILITARY REQUIREMENTS
A. Congress Has Not Denied, but Instead Has
Expressly Authorized, Petitioners' § 8005
Transfer and Utilization of § 284(b)(7)
Drug-Interdiction Account Funds for
14
Roads, Fences and Lighting

11

There is An Unforeseen Military
Requirement for DOD's § 8005 Transfer
and Utilization of § 284(b)(7) DrugInterdiction Account Funds for Roads,
Fences and Lighting in Sectors of the
Southwestern Border
17
The Lower Court's Conclusion, That a
Border Wall is Not a Military Requirement
is Wrong and Misunderstands the
Constitutional and Statutory Framework
in Which Petitioners Interact With
Congress to Protect our National and
22
Border Security
CONCLUSION

25

111

TABLE OF AUTHORITIES
Supreme Court Cases
Allen v. Wright, 468 U.S. 737 (1984)

5

Arizona v. United States, 567 U.S. 387,
132 S. Ct. 2492 (2012)

2

Armstrong v. Exceptional Child Ctr., Inc.,
135 S. Ct. 1378 (2015)
Bond v. United States,
564 U.S. 211 (2011)
Boumediene v. Bush, 553 U.S. 723,
128 S. Ct. 2229 (2008)

12

2, 3, 4, 5

2

Chicago & Southern Air Lines, Inc. v. Waterman
12
S.S. Corp., 333 U.S. 103 (1948)
Dalton v. Specter,
511 U.S. 462 (1994)

6

FEC v. Wis. Right to Life,
551 U.S. 449 (2007)

1

Fiallo v. Bell,
430 U.S. 787 (1977)
Hamdan v. Rumsfeld, 548 U.S. 557,
126 S. Ct. 2749 (2008)

26

2

iv

Harisiades v. Shaughnessy,
342 U.S. 580 (1952)

25

Holder v. Humanitarian Law Project,
561 U.S. 1 (2010)

11

Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992)

11-12

McConnell v. FEC,
540 U.S. 93 (2003)

1

Mathews v. Diaz,
426 U.S. 67 (1976)

8

Pleasant Grove City v. Sum mum,
555 U.S. 460 (2009)

1

Regan v. Wald,
468 U. S. 222 (1984)

12

Trump v. Hawaii, 585 U.S.
138 S. Ct. 2392 (2018)

,

Trump v. Hawaii, 583 U.S.
138 S. Ct. 377 (2017)

,

Trump v. IRAP, 583 U. S. ,
138 S. Ct. 353 (2017)

2, 10-11, 12

2

2

V

Trump v. Sierra Club,
No. 19A60 (July 26, 2019)
United States v. Texas, 579 U.S.
136 S. Ct. 2271 (2016)

8
,
2

Other Cases
Cardenas v. United States,
826 F.3d 1164 (9th Cir. 2016)

26

California v. Trump,
963 F.3d 926 (9th Cir. 2020)

passim

Sierra Club v. Trump,
963 F.3d 874 (9th Cir. 2020)

passim

Sierra Club v. Trump,
929 F.3d 670 (9th Cir. 2019)

16

Constitutions, Statutes, and Executive Orders
U.S. Const. art. ii

25

10 U.S.C. § 284(a)

20

10 U.S.C. § 284(b)

passim

50 U.S.C. § 1631, et seq.
(the National Emergencies Act)

9, 10, 18

vi

Department of Defense and Labor, Health and
Human Services, and Education Appropriations Act,
2019, § 8005, Pub. L. No. 115-245, 132 Stat. 2981
(2018)
passim
FY 2019 Consolidated Appropriations Act, Pub. L.
No. 116-6, 33 Stat. 13 (2019)
6
H.J. Res. 46 (2019)

10

Declaring a Nat'l Emergency Concerning the S.
Border of the United States, Pres. Proc. No. 9844, 84
passim
Fed. Reg. 4949 (Feb. 15, 2019)

Other Authorities
DHS Memorandum, Request for Assistance
Pursuant to 10 U.S.C. § 284 (Feb. 25, 2019)
18, 19, 20
Letter, Acting DOD Secretary Patrick Shanahan, to
DHS Secretary Kirstjen Nielsen (Mar. 25, 2019)
21
Office of the Secretary of Defense, DOD Serial No.
FY 19-01 RA, Reprogramming Action (Mar. 25,
21, 22
2019)

INTEREST OF AMICUS*
Amicus Curiae, the American Center for Law and
Justice (the "ACLJ"), is an organization dedicated to
the defense of constitutional liberties and structures
secured by law. Counsel for the ACLJ have
presented oral argument, represented parties, and
submitted amicus briefs before this Court and
numerous state and federal courts across the
country in cases concerning the First Amendment,
including Pleasant Grove City v. Summum, 555 U.S.
460 (2009); FEC v. Wisconsin Right to Life, Inc., 551
U.S. 449 (2007); and, McConnell v. FEC, 540 U.S. 93
(2003).
Additionally, the ACLJ has been active in
advocacy and litigation regarding the need for
strong and secure borders, prompting it to file
amicus briefs in these cases in the courts below:
Sierra Club v. Trump, No. 19-16102 (9th Cir., filed
June 10, 2019), and California v. Trump, No. 19-cv872 (N.D. Cal., filed May 2, 2019). The ACLJ also
filed amicus briefs in a case raising similar
challenges against lawful Executive actions taken to
protect our national border security, U.S. House of

* All parties have provided written consent to the filing of this
brief, and were notified on September 1, 2020, of Amicus' intent
to file. No counsel for any party in this case authored in whole
or in part this brief. No person or entity aside from the ACLJ,
its members, or its counsel made a monetary contribution to
the preparation or submission of this brief. The ACLJ has no
parent corporation, and no publicly held company owns 10% or
more of its stock.

2

Representatives v. Mnuchin, No. 19-5176 (D.C. Cir.,
filed December 31, 2019), and U.S. House of
Representatives v. Mnuchin, No. 19-cv-969 (D.D.C.,
filed May 16, 2019).
The ACLJ has long engaged in cases before this
Court affecting national security, immigration, and
separation of powers, participating as amicus in
, 138 S. Ct. 2392
Trump v. Hawaii, 585 U.S.
, 138 S. Ct. 353
(2018); Trump v. IRAP, 583 U. S.
, 138 S. Ct.
(2017); Trump v. Hawaii, 583 U.S.
, 136
377 (2017); United States v. Texas, 579 U.S.
S. Ct. 2271 (2016); Arizona v. United States, 567 U.S.
387, 132 S. Ct. 2492 (2012); Boumediene v. Bush, 553
U.S. 723, 128 S. Ct. 2229 (2008); and Hamdan v.
Rumsfeld, 548 U.S. 557, 126 S. Ct. 2749 (2008).
The ACLJ submits this brief on behalf of over
215,000 of its members who support a secure border.

SUMMARY OF ARGUMENT
The lower courts erred in creating constitutional
and equitable causes of action for plaintiffs without
the prudential zone-of-interests test this Court
requires. As the dissent below correctly explained,
had the zone-of-interests test been applied, it would
have foreclosed the causes of action the majority
fashioned. To the extent the Appropriations Clause
of the Constitution may support a cause of action,
like that which this Court established in Bond v.
United States, 564 U.S. 211 (2011), the statute at
issue, § 8005, governs the relationship between the
Executive Branch and Congress, not private

3
litigants. Congress could have amended the relevant
requirements but declined to do so.
Petitioners' transfer of funds pursuant to § 8005
into its § 284(b)(7) drug-interdiction account to
support DHS with roads, fences; and lighting, is
lawful. Congress authorized it through statutes and
appropriations and Petitioners determined it was
necessary for unforeseen military requirements. The
lower court erred, imposing grave consequences
upon our national and border security, as well as the
constitutional structure and function of our national
government. Amicus urges this Court to grant the
Petition.
ARGUMENT
I. THE CREATION OF CONSTITUTIONAL
AND EQUITABLE ULTRA VIRES CAUSES
OF ACTION FREE OF ZONE-OFINTERESTS SCRUTINY EXCEEDS THE
LOWER COURTS' LEGAL AUTHORITY
AND HARMS THE NATION.
The lower court in Sierra Club created a
constitutional cause of action based in the
Appropriations Clause and an "ultra wires" cause of
action in equity to challenge Executive Branch
transfers of appropriated funds. Sierra Club v.
Trump, 963 F.3d 874, 888-92 (9th Cir. 2020). In
doing so, the lower court neglected critical aspects of
prudential requirements.

4
In Bond, an opinion upon which the lower court
ostensibly based its rulings in this regard, see Sierra
Club, 963 F.3d at 888, this Court held that that a
convicted criminal defendant had standing to appeal
her conviction on grounds that the statute upon
which she was convicted violated the Tenth
Amendment and federalism. Beyond the Article III
standing analysis, the Court took on an argument
raised by an amicus that individuals could not
present a claim for relief that relied upon a third
party's interest: "In amicus' view, to argue that the
National Government has interfered with state
sovereignty in violation of the Tenth Amendment is
to assert the legal rights and interests of States and
States alone." Bond, 564 U.S. at 220. To that amicus,
the defendant's Tenth Amendment federalism
challenge violated the "prudential rule . . . that a
party generally must assert his own legal rights and
interests, and cannot rest his claim to relief on the
legal rights or interests of third parties." Id.
(internal quotations and citations omitted).
A unanimous Court rejected that proposition,
because, "[t]he individual, in a proper case, can
assert injury from governmental action taken in
excess of the authority that federalism defines. Her
rights in this regard do not belong to a State." Id.
(emphasis added). As the Court explained:
Federalism secures the freedom of the
individual. It allows States to respond,
through the enactment of positive law, to the
initiative of those who seek a voice in shaping

5
the destiny of their own times without having
to rely solely upon the political processes that
control a remote central power. True, of
course, these objects cannot be vindicated by
the Judiciary in the absence of a proper case
or controversy; but the individual liberty
secured by federalism is not simply derivative
of the rights of the States.
Id. at 221-22 (emphasis added). Further, and
importantly, this Court explained: "An individual
who challenges federal action on these grounds is, of
course, subject to the Article III requirements, as
well as prudential rules, applicable to all litigants
and claims." Id. at 225 (emphasis added).
One such prudential rule applicable to all
litigants and claims reserving Bond-type
constitutional claims for a proper case is the zone-ofinterests test for standing. Allen v. Wright, 468 U.S.
737, 751 (1984). Yet, the majority for the court below
failed to recognize the zone-of-interests requirement
and, in fact, failed to address it in its opinion. But
the dissent addressed it head-on. Sierra Club, 963
F.3d 874, 908 (9th Cir. 2020) (Collins, Circuit Judge,
dissenting) (Regarding the APA claim, "[h]ere, the
problem is not that the Organizations' interests are
inconsistent with the purposes of § 8005, but rather
that they are too 'marginally related' to those
purposes."); id. at 909 ("Even assuming that an
equitable cause of action to enjoin unconstitutional
conduct exists alongside the APA's cause of action . .
. . The Organizations have failed to allege the sort of

6
constitutional claim that might give rise to such an
equitable action, because their 'constitutional' claim
is effectively the very same § 8005-based claim
dressed up in constitutional garb.").
Respondents contended they did not have to'
satisfy any zone-of-interests test for their non-APA
claims. Id. Judge Collins cut right to the core of the
majority's error in accepting the Respondents'
argument: "even if this claim counted as a
`constitutional' one, it would still be governed by the
same zone of interests defined by the relevant
limitations in § 8005." Id. (emphasis added). Where
the Respondents contended that, "if § 8005 did not
authorize the transfers, then the expenditures
violated the Appropriations Clause, the
Presentment Clause, and the separation of powers,"
Judge Collins relied on this Court's precedent in
Dalton v. Specter, 511 U.S. 462 (1994), to point out
that "this theory—despite its constitutional garb—is
properly classified as 'a statutory one.' It therefore
does not fall within the scope of the asserted nonAPA equitable cause of action to enjoin
unconstitutional conduct." Sierra Club, 963 F.3d at
910 (Collins, Circuit Judge, dissenting) (quoting
Dalton, 511 U.S. at 474).
One of the illegitimate results of the lower courts'
constitutional/equity creation, freed from prudential
zone-of-interests impediments, is that it allows
lawsuits, like these, to proceed at the fundschanging-accounts stage and before the
governmental conduct actually at issue — i.e., the
action for which the funds are transferred to

7
capitalize — even occurs. This provides end-runs
around established limitations on claims against
governmental acts of repair and construction as well
as acts in furtherance of our national and border
security, 1 including but not limited to ripeness,
justiciability, prudential standing, sovereign
immunity, supremacy, and the Administrative
Procedures Act. The lower courts' rulings are
especially wayward, and troubling, given the
constitutional powers and responsibilities of
national border security vested in the Executive
Branch, utilizing funds appropriated by Congress.
As Judge Collins aptly explains in his dissent,
Congress is the party whose interests are implicated
by Executive Branch appropriations activity. If
Congress disapproved of the Petitioners' transfers
and usage of funds, as to which Congress was
notified by Petitioners pursuant to statute, Congress
at all times possessed the power to tighten or amend
its restrictions on appropriated funds. It did not. If
there is a plaintiff duly interested in the lawfulness
of appropriations transfers that, on their face,
comply with congressional structures and
restrictions, it is certainly not these Respondents.2
And if there exists a constitutional cause of action

1 The

causes of action created below are not actions against any
governmental undertaking, like construction or repair,
allegedly injuring a plaintiff, but against the transfer of funds
between congressionally created appropriations accounts
preceding any governmental act.
2 Neither is it one chamber of a bicameral Congress.

8
within the Appropriations Clause, it cannot be as
the courts below have framed it.
In sum, the lower court erred in accepting the
Respondents' invitation to generate new causes of
action unrestrained by the zone-of-interest test that,
conveniently, allow litigants and courts to stymie
the President's actions — and constitutional power
using congressionally appropriated funds — to
secure the border. Bestowing in this manner causes
of action upon private litigants and States when the
Executive Branch transfers appropriated funds in
the congressionally approved structure and for
congressionally approved purposes is contrary to the
constitutional separation and balance of powers, and
this Court's clear jurisprudence — especially
concerning issues of security and immigration. See
Mathews v. Diaz, 426 U.S. 67, 81-82 (1976), and note
5, infra. The lower court's version of a constitutional
or ultra vices cause of action found within the
Appropriations Clause, based in equity or otherwise,
fails to cure the defect. There is a reason the lower
court neglected to apply the zone-of-interests test to
any of Respondents' claims: If it did, those claims
would fail. See Trump v. Sierra Club, No. 19A60
(July 26, 2019) ("The application for stay presented
to JUSTICE KAGAN and by her referred to the
Court is granted. Among the reasons is that the
Government has made a sufficient showing at this
stage that the plaintiffs have no cause of action to
obtain review of the Acting Secretary's compliance
with Section 8005.). Amicus urges this Court to

9
grant the Petition for Certiorari so it may right this
dangerous wrong.
II. PETITIONER DOD'S TRANSFER OF
FUNDS PURSUANT TO § 8005 OF THE FY
2019 DODAA INTO ITS § 284(b)(7) DRUGINTERDICTION ACCOUNT TO SUPPORT
DHS WITH ROADS, FENCES, AND
LIGHTING, IS LAWFUL BECAUSE IT IS
AUTHORIZED BY CONGRESS AND
DETERMINED TO BE FOR UNFORESEEN
MILITARY REQUIREMENTS.
Before addressing the obvious lawfulness of the
Petitioners' challenged fund transfers, it must be
noted that the Petitioners' challenged actions did not
occur in a vacuum. On February 15, 2019, the
President of the United States proclaimed the
existence of a national emergency under the
National Emergencies Act, 50 U.S.C. § 1631, et seq.,
necessitating, among other actions, the construction
of a wall across the southern border. Declaring a
Nat'l Emergency Concerning the S. Border of the
United States, Pres. Proc. No. 9844, 84 Fed. Reg.
4949 (Feb. 15, 2019) ("Emergency Declaration").
In spite of the District Court's visible disapproval
of the Emergency Declaration, it is both indisputable
and undisputed that both Congress and the
President followed the executive and legislative
procedure set forth by Congress itself in the
National Emergencies Act to provide a political
check on the President's power concerning national

10
emergencies. 3 It is equally indisputable and
undisputed that, consistent with that procedure,
Congress was unwilling to terminate the President's
Emergency Declaration.4
Congress enacted the National Emergencies Act
both recognizing the President's power to declare a
national emergency and granting to him certain
statutory resources to utilize in his discretion. It is
thus neither the Respondents' nor the courts' proper
role to determine whether there is an emergency on
the southern border. Petitioners have made this
determination based on legitimate criteria they have
reviewed and in accordance with what they view as
necessary to serve vital national security interests.
At all times, Petitioners have proceeded under their
duly authorized powers. " [T] he Executive's
evaluation of the underlying facts is entitled to
appropriate weight, particularly in the context of
litigation involving 'sensitive and weighty interests
of national security and foreign affairs."' Trump v.
3 Both Chambers of Congress voted on a House Joint
Resolution, H.J. Res. 46, to terminate the President's
Emergency Declaration. On March 15, 2019, the President
vetoed this Joint Resolution. Subsequently, on March 26, 2019,
Congress failed to override the Presidential with a vote of 248181, falling well short of the constitutionally required twothirds threshold.
4 The District Court's insinuation of disapproval of the
Emergency Declaration reveals its lack of understanding of the
seriousness of both the requirement and unforeseen nature of
that requirement for the § 8005 funds Congress has authorized
Petitioners to transfer into the DOD's § 284(b) drug
interdiction account.

11
Hawaii, 138 S. Ct. 2392, 2421-22 (2018) (quoting
Holder. v. Humanitarian Law Project, 561 U.S. 1,
33-34 (2010)). From an objective legal perspective,
there is an undisputed national emergency.
Dealing with the underlying facts giving rise to
the President's Emergency Declaration has
engendered unforeseen incidental costs, including
unforeseen military requirements such as additional
roads, fences, and lighting. Thankfully for the
Nation, in a different statute, Congress has
explicitly authorized the Executive Branch to use
funds, 10 U.S.C. § 284(b)(7), and to transfer funds, §
8005 of the Department of Defense and Labor,
Health and Human Services, and Education
Appropriations Act ("FY 2019 DODAA"), Pub. L. No.
115-245 (to be printed at 132 Stat. 2981, 2999)
(2018), for exactly this kind of unforeseen military
requirement.
Pursuant to well-established jurisprudential and
separation of powers principles, the courts are not
properly situated to intervene and substitute policy
judgments for that of the political branches —
especially when issues of national security, foreign
affairs, and immigration are involved; 5 and
5 See Mathews v. Diaz, 426 U.S. 67, 81-82 (1976) ("Any rule of
constitutional law that would inhibit the flexibility of the
political branches of government to respond to changing world
conditions should be adopted only with the greatest caution.
The reasons that preclude judicial review of political questions
also dictate a narrow standard of review of decisions made by
the Congress or the President in the area of immigration and
naturalization."); Trump v. Hawaii, 138 S. Ct. 2392, 2419-20
(2018) (quoting Mathews, 426 U.S. at 81-82; Lujan v.

12
especially for plaintiffs, who, like Respondents, are
nowhere near any sound articulation of the zone-ofinterests test.6
To be sure, Petitioners' authority to utilize § 284
drug-interdiction account funds — and their
authority under § 8005 to transfer additional funds
to that account enjoined by the court below — are
not specifically dependent upon the President's
Emergency Declaration. See Sierra Club, 963 F.3d

Defenders of Wildlife, 504 U.S. 555, 577 (1992) (rejecting
plaintiffs' incorrect position that "would enable the courts, with
the permission of Congress, to assume a position of authority
over the governmental acts of another and co-equal
department, to become virtually continuing monitors of the
wisdom and soundness of Executive action." (internal
quotations and citations omitted)); see also Trump, 138 S. Ct.
at 2421 ("But we cannot substitute our own assessment for the
Executive's predictive judgments on such matters," i.e.,
whether an executive branch policy was wise, effective or does
little to serve national security interests, "all of which 'are
delicate, complex, and involve large elements of prophecy."'
(quoting Chicago & Southern Air Lines, Inc. v. Waterman S.S.
Corp., 333 U.S. 103, 111 (1948))); Regan v. Wald, 468 U. S. 222,
242-243 (1984) (declining invitation to conduct an
"independent foreign policy analysis").
6 Indeed, the District Court did not imagine a zone of interests
within which these Respondents could stand; but instead,
dispensed with the test altogether. Order, 28-30 (misapplying
Armstrong v. Exceptional Child Ctr., Inc., 135 S. Ct. 1378
(2015), and incorrectly concluding zone of interests test does
not apply to implied actions for equitable relief). The Ninth
Circuit in Sierra Club repeated this error, supra, Section I, and
in Sierra Club and California v. Trump, applied a zone-ofinterests to the APA claims so watered down and contorted it
lacks any meaningful prudential purpose or strength.

13
at 881 n.5. The unchallenged Emergency
Declaration and the overwhelming facts of the
national security and humanitarian crisis leading to
the issuance of that Emergency Declaration, while
not dispositive, are still informative and relevant to
a proper understanding of the Petitioners' § 8005
actions enjoined by the District Court. Many of the
same facts giving rise to the national emergency give
rise to the unforeseen military requirement for
Department of Defense ("DOD") support to the
Department of Homeland Security ("DHS"). The
District Court categorically failed to understand this
reality.
The District Court wrongly concluded that
Petitioners' utilization of the authority granted by §
8005 exceeds the limitations contained in that
provision for two reasons: First, "Plaintiffs have
shown a likelihood of success as to their argument
that Congress previously denied 'the item for which
funds are requested,' precluding the proposed
transfer." Pet.'s App., 351a. Second, Is] eparate and
apart from the Court's analysis above regarding
whether Congress previously denied funding for the
relevant item, Plaintiffs also have shown a
likelihood of success as to their argument that
Defendants fail to meet the 'unforeseen military
requirement' condition for the reprogramming of
funds under Section 8005." Id.
The Ninth Circuit, in Sierra Club and California,
agreed. Sierra Club, 963 F.3d at 886-87 ("In the
opinion filed today in the companion case, State of
California, et al. v. Trump, et al., Nos. 19-16299 and

14
19-16336, slip op. at 37 [963 F.3d 926, 944] (9th Cir.
filed June 26, 2020), we hold that Section 8005 did
not authorize the transfer of funds at issue here
because the border wall was not an unforeseen
military requirement,' and 'funding for the wall had
been denied by Congress.' We reaffirm this holding
here and conclude that Section 8005 did not
authorize the transfer of funds.").
Section 284(b) provides that "[t]he purposes for
which the Secretary [of Defense] may provide
support" to other agencies include "[c]onstruction of
roads and fences and installation of lighting to block
drug smuggling corridors across international
boundaries of the United States." 10 U.S.C. § 284(b),
(b)(7). According to the transfer authority granted in
§ 8005 of the FY 2019 DODAA, the Secretary of
Defense may transfer the funds at issue, "[p]rovided,
[t]hat such authority to transfer may not be used
unless for higher priority items, based on unforeseen
military requirements, than those for which
originally appropriated and in no case where the
item for which funds are requested has been denied
by the Congress." FY 2019 DODAA.
A. Congress Has Not Denied, but Instead
Has Expressly Authorized, Petitioners' §
8005 Transfer and Utilization of §
284(b)(7) Drug-Interdiction Account
Funds for Roads, Fences and Lighting.
The lower courts conflated two issues when they
determined that the "item" for which § 8005 funds

15

were being transferred by Petitioners was a general
"steel barrier for the Southwest border" desired by
the President, for which the President asked
Congress for "$5.7 billion for construction." Pet.'s
App., 351a (Order, 32). In the FY 2019 Consolidated
Appropriations Act ("CAA"), Pub. L. No. 116-6 (to be
printed at 133 Stat. 13) (2019), "passed by Congress
and signed by the President, Congress appropriated
only $1.375 billion for the construction of pedestrian
fencing, of a specified type, in a specified sector, and
appropriated no other funds for barrier
construction." Pet.'s App, 351a (Order, 32-33).
Again, the Ninth Circuit agreed. California, 963
F.3d at 948-49. To the lower courts, this meant
Congress denied funds for item for which §8005
funds were being transferred by Petitioners. The
lower courts are wrong.?
In this case, the correct "item" to which the §
8005 "denied by the Congress" restriction applies is
roads, fences, and lighting constructed by the DOD,
in support of the DHS, in countering international
criminal and drug trafficking activity within
specified Sectors of the Southwestern border, all
pursuant to 10 U.S.C. § 284(b)(7). That is explicitly
what the § 8005 funds are being transferred to
accomplish. And that is what the District Court
enjoined.
7 Neither the Ninth Circuit nor the District Court pointed to
any provision of the CAA that purports to deauthorize
Petitioner DOD's preexistent and separate § 8005 transfer and
utilization of § 284(b)(7) drug-interdiction account funds for
roads, fences and lighting.

16
The District Court conceded there was no direct
denial by Congress for the item at issue, and
creatively worked around the undisputable absence
of a direct or specific denial. Pet.'s App., 353a, 408a
("Defendants point to nothing in the language or
legislative history of the statutes in support of their
assertion that only explicit congressional denial of
funding for 1Section] 284 projects,' or even DoD
projects generally, would trigger Section 8005's
limitation."); id. 413a-14a ("Defendants' decision not
to refer specifically to Section 284 in their $5.7
billion funding request deprived Congress of even
the opportunity to reject or approve this funding
item."). The Ninth Circuit did as well. California,
963 F.3d at 949 ("We decline to impose upon
Congress an obligation to deny every possible source
of funding.").
The District Court incorrectly blamed
Petitioners for Congress' failure to directly deny
specific Sector improvements or change the
requirements of § 8005 or 10 U.S.C. § 284(b). Pet.'s
App., 353a, 408a, 413a-14a. But the law does not
require the Petitioners to request funds for a § 8005
item. Instead, it merely provides that if funds for
such an item have been denied by Congress,
Petitioners cannot rely on § 8005 to circumvent that
congressional denial. In short, the lower courts
created and imposed upon Petitioners a duty not
found in the law.8
The lower courts' reliance on committee letters purporting to
deny Petitioners' § 8005 transfer is surprising. Sierra Club, 963
F.3d at 882; Sierra Club v. Trump, 929 F.3d 670, 681 (9th Cir.

8

17
Ultimately, Congress expressly authorized
Petitioners' § 8005 transfer by way of passing § 8005
itself. Regardless of whether Petitioners gave
Congress "the opportunity" (as the District Court
put it), Congress could have acted if it wished to
prohibit the support it had already authorized the
DOD to provide to the DHS. It did not. There was no
denial barring Petitioners' utilization of § 8005 and
the lower courts' attempts to manufacture a denial
are misguided.
B. There is An Unforeseen Military
Requirement for DOD's § 8005 Transfer
and Utilization of § 284(b)(7) DrugInterdiction Account Funds for Roads,
Fences and Lighting in the Yuma and El
Paso Sectors.
As discussed herein, Petitioners have identified
an unforeseen military requirement for the
challenged DOD support. Again, it is the President,
2019); Pet.'s App., 318a, 413a (citing RJN Ex. 35 ("The
committee denies this request. The committee does not approve
the proposed use of [DoD] funds to construct additional
physical barriers and roads or install lighting in the vicinity of
the United States border."); id. Ex. 36 ("The Committee has
received and reviewed the requested reprogramming action . .
. . The Committee denies the request."). The Court failed to
explain, nor could it possibly, how these partisan committee
letters could in any way constitute, substitute for, or express
the voice of Congress vis-à-vis a majority vote on the floor of
both chambers as is the legally and constitutionally required
process.

18
and other Petitioners, who have statutory power to
identify an unforeseen military requirement, not the
Respondents and not the judiciary. See National
Emergencies Act; 10 U.S.C. § 284(b); FY 2019
DODAA, § 8005.
First, the President illustrated his determination
on this matter, in part, by declaring a national
emergency consistent with the National
Emergencies Act. As the President explained in his
Emergency Declaration, "despite the executive
branch's exercise of existing statutory authorities,
the situation has worsened in certain respects in
recent years"; and, "[b]ecause of the gravity of the
current emergency situation, it is necessary for the
Armed Forces to provide additional support to
address the crisis." Emergency Declaration (Feb. 15,
2019).
Second, the DHS identified the unforeseen
nature of its need by and within its request to the
DOD for § 284 support. On February 25, 2019, the
DHS requested the DOD "[t]o support DHS's action
under Section 102 of IIRIRA," explaining that "DHS
is requesting that DoD, pursuant to its authority
under 10 U.S.C. § 284(b)(7), assist with the
construction of fences, roads, and lighting within the
Project Areas to block drug-smuggling corridors
across the international boundary between the
United States and Mexico." DHS Memorandum,
Request for Assistance Pursuant to 10 U.S.C. § 284,
2 (Feb. 25, 2019) (Doc. # 7-3, p. 7) ("DHS
Memorandum"); see Cert. Pet., 7 (quoting C.A. E.R.
272); Pet.'s App. 216a-17a. Within its request for

19
support, the DHS explained that, "[w]ithin the
Project Areas, DHS is experiencing large numbers of
individuals and narcotics being smuggled into the
country illegally." DHS Memorandum at 1 (Doc. # 73, p. 6). The DHS also explained that:
[t]he Project Areas identified are adjacent to
some of the most densely populated
metropolitan areas of Mexico and are also
home to some of the strongest and most
violent drug cartels in the world. Deterring
and preventing illegal cross-border activity
will help stem the flow of illegal narcotics and
entries in these areas. Similarly, the improved
ability to impede, deny, and be mobile within
the Project Areas creates a safer operational
environment for law enforcement.
Id. at 2 (Doc. # 7-3, p. 7) (emphasis added). Further,
the DHS stated with respect to the Yuma Sector,
[t]he replacement of ineffective pedestrian
fencing in this area is necessary because the
older, wire mesh design is easily breached and
has been damaged to the extent that it is
ineffective. Additionally, this area is notorious
for border violence and narcotics smuggling.
Furthermore, while the deployment of vehicle
barrier in the Yuma Sector initially curtailed
the volume of illegal cross-border vehicular
traffic, transnational criminal organizations
quickly adapted their tactics switching to foot

20
traffic, cutting the barrier, or simply driving
over it to smuggle their illicit cargo into the
United States. Thus, in order to respond to
these changes in tactics, DHS now requires
. pedestrian fencing.
Id. at 4 (Doc. # 7-3, p. 9) (emphasis added). The
DHS's request for DOD support also identified and
described similar facts concerning the El Paso
Sector, id. at 8 (Doc. # 7-3, p. 13), as well as other
sectors of the border, id. at 3 (Doc. # 7-3, p. 8)
(addressing El Centro Sector); id. at 5 (Doc. # 7-3, p.
10) (addressing Tucson Sector). Congress clearly
provided that the DHS may request, and the DOD
may provide, support in just such instances. 10
U.S.C. § 284(a)(1) (authorizing DOD to support
counter-drug activities of other agencies when "such
support is requested").
Third, the DOD identified the unforeseen nature
of the need for support both by and within its
notifications to the DHS and to Congress concerning
its § 284(b)(7) support for the DHS and § 8005 funds
transfer in furtherance of that support. In the DOD's
March 25, 2019, response to DHS's request for
support, Acting Secretary of Defense Patrick
Shanahan expressly cited the DOD's statutory
authority under 10 U.S.C. § 284(b)(7) and
acknowledged that "[t]he work requested by DHS to
block these identified drug smuggling corridors
involves construction of fences (including a linear
ground detection system), construction of roads, and
installation of lighting (supported by grid power and

21
including imbedded cameras)." Letter, Acting DOD
Secretary Patrick Shanahan, to DHS Secretary
Kirstjen Nielsen (Mar. 25, 2019) (Doc. # 7-3, p. 17);
see Cert. Pet., 7, Pet.'s App. 83a, C.A. E.R. 219, 274,
278-279, 285-286, 294-298. "Accordingly, at this
time, I have decided to undertake Yuma Sector
Projects 1 and 2 and El Paso Sector Project 1 by
constructing 57 miles of 18-foot-high pedestrian
fencing, constructing and improving roads, and
installing lighting as described in your February 25,
2019 request." Id.
According to the DOD's notification to Congress,
"[t]his reprogramming action provides funding in
support of higher priority items, based on
unforeseen military requirements, than those for
which originally appropriated; and is determined to
be necessary in the national interest." Office of the
Under Secretary of Defense (Comptroller), DOD
Serial No. FY 19-01 RA, Reprogramming Action
(Mar. 25, 2019) (Doc. # 7-3, p. 24).
The DOD's notification to Congress further
stated that:
Funds are required to provide support for
counter-drug activities of the [DHS]. DHS has
identified areas along the southern border of
the United States that are being used by
individuals, groups, and transnational
criminal organizations as drug smuggling
corridors, and determined that the
construction of additional physical barriers
and roads in the vicinity of the United States

22
border is necessary in order to impede and
deny drug smuggling activities. DHS requests
DoD assistance in the execution of projects to
replace existing vehicle barriers or
dilapidated pedestrian fencing with new
pedestrian fencing, construct roads, and
install lighting.
Id. Clearly, the requirement for roads, fences, and
lighting constructed by the DOD to support the DHS
in countering international criminal activity and
drug trafficking at our Nation's southern border was
determined to be, and identified as, unforeseen by
Petitioners. The § 8005 "unforeseen" restriction,
therefore, does not bar Petitioners' fund transfers
into DOD's drug-interdiction account for § 284(b)(7)
support.
C. The Lower Court's Conclusion That a
Border Wall is Not a Military
Requirement is Wrong and
Misunderstands the Constitutional and
Statutory Framework in Which
Petitioners Interact With Congress to
Protect our National and Border
Security.
The Ninth Circuit in California "also conclude [d]
that the need was unrelated to a military
requirement," even though the district court had
not. California, 963 F.3d at 944. This holding is in
error.

23
As previously noted, Defendants' § 8005 transfer
into DOD's drug-interdiction account was so that the
Secretary of Defense may support other federal
agencies in the "[c]onstruction of roads and fences
and installation of lighting to block drug smuggling
corridors across international boundaries of the
United States," all as expressly authorized by §
284(b)(7) — not a "border wall." This reality is amply
demonstrated by Petitioners' own record below9 and
9 In Respondents' own words to the District Court, "DOD
approved the transfer in response to a February 25 request by
DHS for DOD to 'assist with the construction of fences[,] roads,
and lighting' under § 284(b)(7) to 'block drug-smuggling
corridors across the international boundary between the
United States and Mexico' in certain areas identified by DHS."
Plaintiffs' Motion (Doc. #59, p. 8) (quoting RJN Ex. 33); see
Pet.'s App., 317a, 329a, 426a. And, "In the March 25, 2019
response to DHS's request; Defendant Shanahan notified
Defendant DHS Secretary Nielsen that he authorized the
Commander of the U.S. Army Corps of Engineers to utilize the
$1 billion being transferred to coordinate with DHS to assist in
the construction" not of a border wall, but "of 18-foot-highpedestrian fencing, the construction and improvement of roads,
and the installation of lighting in the Yuma Sector Projects 1
and 2 (on the southwest border of Arizona) and El Paso Sector
Project 1 (on the southwest border of New Mexico) identified in
DHS's February 25 request." Id. (quoting RJN Ex. 34); see
Pet.'s App., 317a.
Also "[o]n March 25, 2019, Defendant II Acting Secretary
[of Defense] Shanahan apprised Congress that pursuant to §
8005, DOD was transferring $1 billion from DOD's Military
Personnel and Reserve Personnel account to DOD's druginterdiction account to be used for barrier fencing," Id. (citing
RJN Ex. 32); see Pet.'s App., 317a, roads, and lighting. Further,
DOD notified Congress that (1) "fflunds are required to provide
support for counter-drug activities of the Department of

24
in the Ninth Circuit's opinion. 10 Accordingly,
whether "a border wall" is a "military requirement"
is not even the proper question for the courts to
decide. Even if it were, within the American
constitutional structure, courts are simply unable to
make this type of judgment. See supra n. 5. If the
question is framed properly, it becomes clear that
Congress' own statutes and appropriations
requirements recognize DHS' ability to assist the
DOD in the construction of roads, fences, and
lighting.
In addition, the President has already
determined that:
The current situation at the southern border
presents a border security and humanitarian
crisis that threatens core national security
interests and constitutes a national
emergency. . . . Because of the gravity of the
current emergency situation, it is necessary for

Homeland Security (DHS)"; (2) "DHS has identified areas
along the southern border of the United States that are being
used by individuals, groups, and transnational criminal
organizations as drug smuggling corridors"; (3) DHS
"determined that the construction of additional physical
barriers and roads in the vicinity of the United States border
is necessary in order to impede and deny drug smuggling
activities"; and (4) "DHS requests DoD assistance in the
execution of projects to replace existing vehicle barriers or
dilapidated pedestrian fencing with new pedestrian fencing,
construct roads, and install lighting." Id.
10 California, 963 F.3d at 947 (quoting same sources); id.
(referring to the item as "border wall construction projects").

25
the Armed Forces to provide additional
support to address the crisis. . . . I hereby
declare that this emergency requires use of the
Armed Forces.
Emergency Declaration (emphasis added). Against
this backdrop, the Court of Appeals' conclusion that
a border wall is not a military requirement is,
objectively, wrong, and Respondents' contention to
the District Court that "[t]he protection of the border
is the job of DHS, not DOD" Plaintiffs' Motion (Doc.
# 59, p. 23), and the Ninth Circuit acceptance of that
idea, California, 963 F.3d at 947 ("The record
demonstrates that the diverted funding is primarily
intended to support DHS—a civilian agency entirely
separate from any branch of the armed forces."), fails
to salvage it. Instead, it displays a failure to
understand the constitutional and statutory
framework within which Petitioners interact with
Congress to protect our national and border security.
The lower courts erred, and the error presents
grave national consequences.
CONCLUSION
Petitioners have taken no unconstitutional or
ultra vices action. The United States Constitution
grants to the President inherent foreign affairs and
national security powers. U.S. Const. art. II;
Harisiades v. Shaughnessy, 342 U.S. 580, 588 (1952)
(recognizing that immigration control is an integral
part of article II authorities "in regard to the conduct

26
of foreign relations [and] the war power"). "The
Supreme Court has 'long recognized the power to
expel or exclude aliens as a fundamental sovereign
attribute exercised by the Government's political
departments largely immune from judicial control."'
Cardenas v. United States, 826 F.3d 1164, 1169 (9th
Cir. 2016) (quoting Fiallo v. Bell, 430 U.S. 787, 792
(1977)). This kind of power must include the power
to protect and secure the border. Petitioners have
utilized those powers within a congressionally
enacted and appropriated structure. Petitioners' §
8005 transfer accomplishes precisely that which the
Constitution vested and Congress expressly
authorized and funded Petitioners with the power to
do. The lower courts' decisions impact the entire
nation's security and confound the national
government's constitutional structure and
functions.
For these reasons, Amicus respectfully urges this
Court to grant the Petition for Certiorari.
Respectfully submitted,
JAY ALAN SEKULOW

Counsel of Record
STUART J. ROTH
ANDREW J. EKONOMOU
JORDAN SEKULOW
MILES L. TERRY
MARK GOLDFEDER
BENJAMIN P. SISNEY

AMERICAN CENTER FOR
LAW & JUSTICE

201 Maryland Avenue, NE
Washington, DC 20002
(202) 546-8890
sekulow@aclj.org

Counsel for Amicus Curiae

